                                                       NATIONAL SCIENCE FOUNDATION
                                                        OFFICE OF INSPECTOR GENERAL
                                                          OFFICE OF INVESTIGATIONS

                                              CLOSEOUT MEMORANDUM

Case Number: A09060045                                                                       Page 1 of I



                We received an allegation that a PI' and CO- PI^ plagiarized material in their proposal3. The
         PI admitted that he and a Senior personnel4 may have plagiarized, but they claimed that they did so
         inadvertently. Both stated that they were in such a rush to submit the proposal that they may have
         submitted the versions that contained information that was not properly cited. The Co-PI is out of
         the country and did not respond to our inquiry. However, the PI stated that he believed that the
         material expressed "a widely held view" and thus the Co-PI did not plagiarize. While the material
         did express a "widely held view," the Co-PI copied particular text verbatim from another author's
         work, without citing the source. Since this inquiry involved a small amount of text, we have sent a
         questionable research practice letter to all three subjects, but no further action will be taken.

                   Accordingly, this case is closed.




NSF OIG Form 2 (11102)
